Neutral
As of: October 19, 2020 2:13 PM Z

United States v. Jeffries
United States Court of Appeals for the Sixth Circuit
July 24, 2020, Filed
No. 18-4081
Reporter
2020 U.S. App. LEXIS 23569 *

rehearing for the reasons stated in her dissent.
UNITED STATES OF AMERICA, Plaintiff-Appellant, v.
JURMAINE A. JEFFRIES, Defendant-Appellee.

End of Document

Prior History: United States v. Jeffries, 958 F.3d 517, 2020
U.S. App. LEXIS 14767, 2020 FED App. 141P (6th Cir.) (6th
Cir. Ohio, May 8, 2020)

Counsel: [*1] For United States of America, Plaintiff Appellant: Megan Renee Miller, Office of the U.S. Attorney,
Cleveland, OH.
For Jurmaine A. Jeffries, Defendant - Appellee: Claire
Roxanne Cahoon, Office of the Federal Public Defender,
Toledo, OH.

Judges: BEFORE: BOGGS, BATCHELDER, and
DONALD, Circuit Judges.

Opinion
ORDER
The court received a petition for rehearing en banc. The
original panel has reviewed the petition for rehearing and
concludes that the issues raised in the petition were fully
considered upon the original submission and decision of the
case. The petition then was circulated to the full court. No
judge has requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied. Judge Donald would grant

Appendix B

